<html>
<title> - ILLEGAL TRAFFICKING OF ARCHAEOLOGICAL RESOURCES; PROTECTION OF PALEONTOLOGICAL RESOURCES; AND DESIGNATE CERTAIN WATERWAYS IN PUERTO RICO</title>
<body><pre>[Senate Hearing 107-794]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-794
 
    ILLEGAL TRAFFICKING OF ARCHAEOLOGICAL RESOURCES; PROTECTION OF 
 PALEONTOLOGICAL RESOURCES; AND DESIGNATE CERTAIN WATERWAYS IN PUERTO 
                                  RICO
=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 2598

     TO ENHANCE THE CRIMINAL PENALTIES FOR ILLEGAL TRAFFICKING OF 
            ARCHAEOLOGICAL RESOURCES, AND FOR OTHER PURPOSES

                                S. 2727

 TO PROVIDE FOR THE PROTECTION OF PALEONTOLOGICAL RESOURCES ON FEDERAL 
                     LANDS, AND FOR OTHER PURPOSES

                               H.R. 3954

TO DESIGNATE CERTAIN WATERWAYS IN THE CARIBBEAN NATIONAL FOREST IN THE 
  COMMONWEALTH OF PUERTO RICO AS COMPONENTS OF THE NATIONAL WILD AND 
              SCENIC RIVERS SYSTEM, AND FOR OTHER PURPOSES

                               __________

                             JULY 23, 2002

                               __________

                       Printed for the use of the
               Committee on Energy and Natural Resources






                           U.S. GOVERNMENT PRINTING OFFICE
83-310                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman
BYRON L. DORGAN, North Dakota        CRAIG THOMAS, Wyoming
BOB GRAHAM, Florida                  BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CONRAD BURNS, Montana
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
CHARLES E. SCHUMER, New York         CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           PETE V. DOMENICI, New Mexico

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee

                      David Brooks, Senior Counsel
                     Nancie Ames, Bevinetto Fellow
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Acevedo-Vila, Anibal, Resident Commissioner, Puerto Rico.........     2
Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     1
Estill, Elizabeth, Deputy Chief, Programs and Legislation, Forest 
  Service........................................................     8
Kearney, Christopher, Deputy Assistant Secretary for Policy, 
  Management and Budget, Department of the Interior..............     4
Stucky, Richard, Ph.D., President, Society of Vertebrate 
  Paleontology, and Vice President, Denver Museum of Nature and 
  Science........................................................    11


    ILLEGAL TRAFFICKING OF ARCHAEOLOGICAL RESOURCES; PROTECTION OF 
 PALEONTOLOGICAL RESOURCES; AND DESIGNATE CERTAIN WATERWAYS IN PUERTO 
                                  RICO

                              ----------                              


                         TUESDAY, JULY 23, 2002

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Daniel Akaka 
presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. The hearing of the Subcommittee on National 
Parks will come to order.
    Good afternoon, everyone. I want to thank all of the 
witnesses and all of those of you in the audience for your 
interest in today's hearing.
    The purpose of this afternoon's hearing before the 
Subcommittee on National Parks is to receive testimony on three 
bills pending before the subcommittee. The bills that we are 
considering today include S. 2598, to enhance the criminal 
penalties for illegal trafficking of archeological resources; 
S. 2727, to provide for the protection of paleontological 
resources on Federal lands; and H.R. 3954, to designate certain 
waterways in the Caribbean National Forest in the Commonwealth 
of Puerto Rico as components of the National Wild and Scenic 
Rivers System.
    I am pleased to see this bill, which recognizes the 
importance of our country's tropical resources and extends the 
designation of wild and scenic rivers to the Caribbean.
    The other two bills before us today would protect the 
extensive assemblage of clues to our heritage and biological 
past found in fossils and archeological resources. Senator 
Leahy's S. 2598 would strengthen and rationalize criminal 
penalties for theft or damage to cultural and archeological 
resources, particularly those relating to Native American 
cultural items.
    I would like to take a moment to make a brief statement 
about S. 2727, the Paleontological Resources Preservation Act. 
I am cosponsoring this legislation with Senators Inouye and 
Feinstein to protect and preserve the Nation's important fossil 
record for the benefit of our citizens. Vertebrate fossils are 
threatened by a growing commercial market which is being 
supplied in part by the illegal collection of fossil specimens.
    This bill establishes a national policy for preserving and 
managing paleontological resources found on Federal lands. It 
provides uniformity to the patchwork of statutes and 
regulations that currently exist. And it ensures that the 
public will have educational and scientific access to this part 
of the geological and biological past.
    I would like to emphasize that this bill in no way affects 
the archeological or cultural resources under the Archeological 
Resources Protection Act of 1979 or the Native American Graves 
Protection and Rehabilitation Act. They are exempted. This bill 
covers paleontological remains, such as dinosaurs and mammoths, 
on Federal lands only.
    S. 2727 is based on seven principles outlined in the May 
2000 report entitled, ``An Assessment of Fossil Management on 
Federal and Indian Lands,'' which was prepared by the 
Department of the Interior, the U.S. Forest Service, and the 
Smithsonian Institution.
    The bill finds that fossil resources on Federal lands are 
an irreplaceable part of the heritage of the United States. It 
affirms the principle that reasonable access to fossil 
resources should be provided for scientific, educational, and 
recreation purposes.
    While the bill provides for casual or amateur collection of 
invertebrate fossils, it also protects vertebrate fossils under 
a system of permits. The penalties and criminal provisions in 
the measure are modeled after ARPA and reflect the need to 
provide a strong disincentive to those who would steal such 
resources from Federal lands. Fossils are too important to be 
left within the general theft provisions and they are too 
valuable to the education of our children for us not to ensure 
public access.
    I look forward to hearing the testimony of our witnesses on 
this topic. I also look forward to working with the bills' 
sponsors and with Senator Thomas, as we consider all three of 
these bills.
    Our witnesses this afternoon will be Christopher Kearney, 
Deputy Assistant Secretary for Policy, Management and Budget 
for the Department of the Interior; Elizabeth Estill, Deputy 
Chief for Programs and Legislation, U.S. Forest Service; and 
Dr. Richard Stucky, president of the Society of Vertebrate 
Paleontology from the Denver Museum of Nature and Science.
    At this time, I would like to call on Senator Thomas for 
any opening statement you have.
    [A prepared statement from Congressman Acevedo-Vila 
follows;]
Prepared Statement of Hon. Anibal Acevedo-Vila, Resident Commissioner, 
                              Puerto Rico
    I want to thank Chairman Akaka and Ranking Member Thomas for 
including H.R. 3954--The Caribbean National Forest Wild and Scenic 
Rivers Act of 2002 on the agenda today and I welcome this opportunity 
to testify and work with the Subcommittee to enact this legislation.
    Earlier this year, I introduced H.R. 3954 with great pride. The 
Caribbean National Forest, commonly known in Puerto Rico as El Yunque, 
is the only tropical rain forest within the U.S. National Forest 
System. El Yunque is a natural wonder and unique resource that we must 
preserve and protect forever. El Yunque is the only managed rain forest 
on earth, and with this distinction comes heightened responsibility in 
my opinion, to fully protect this important resource. The enactment of 
this bill will help ensure that the natural integrity of El Yunque is 
reserved for the 1 million annual visitors to the CNF for generations 
to come.
    H.R. 3954 would preserve and protect three rivers that flow within 
the boundaries of El Yunque. It is the intent of the Wild and Scenic 
Rivers Act of 1968 to preserve rivers and sections thereof to protect 
the water quality of such rivers and to fulfill other vital national 
conservation purposes. It is within this intent that I have introduced 
this bill, and I am fully committed to the preservation of these 
beautiful rivers. While there are additional rivers within El Yunque 
that have received wild and scenic designation recommendations, the 
areas of these rivers are covered under H.R. 3955 through wilderness 
designation, or are within the existing Bano de Oro Natural Area. 
Therefore, I have followed recommendations to focus on rivers running 
outside of the proposed El Toro Wilderness Area and outside of existing 
natural areas.
    The three rivers that would be designated under this act were all 
recommended for inclusion under the National Wild and Scenic Rivers 
System by the revised land and resource management plan for the CNF, 
approved April 17, 1997. This management plan was the basis for the 
introduction of this bill, and I ask for your support during its 
consideration.
    The three rivers include the Rio Mameyes, the Rio Icacos, and the 
Rio de La Mina. All three have outstanding characteristics and make up 
an integral part of the experience when visiting the forest.
    The Rio Mameyes offers outstanding scenic, biological and 
recreational values to visitors. It flows over large boulders and 
numerous waterfalls, forming enjoyable pools. Trails run along gorges 
that descend through the forest. The water quality along the upper 
segment is optimum, with no interference from human encroachment.
    The Rio Mameyes provides important habitat for the Puerto Rican 
Parrot and Puerto Rican Boa, both endangered species. Furthermore, the 
endangered Broad-winged and Sharp-shinned Hawks, and the threatened 
Peregrine Falcon, are also known to use this area. The Mameyes system 
enjoys the highest natural aquatic diversity and species richness of 
any forest watershed. The Mameyes remains the only uninterrupted, free 
flowing river in Puerto Rico.
    The Rio de la Mina is judged as eligible based on its outstanding 
scenic, recreation, biological and historic values. Like the Mameyes, 
the Rio de La Mina descends over boulders and waterfalls, forming 
rapids and pools. Trails parallel the river and provide for numerous 
recreation areas, including picnic areas that are among the most 
popular tourist destinations within the CNF. The most spectacular 
waterfalls in the forest exist along the Rio de la Mina. These falls, 
known as La Mina Falls, play an important role in promoting Puerto Rico 
as a prime vacation destination. The water quality is good within the 
proposed designation area. The Rio de la Mina also provides habitat for 
endangered animal and plant species.
    The Rio Icacos is judged as eligible based on its outstanding 
scenic, historic, cultural and ecological values. The Rio Icacos has 
some of the most varied terrain of any of El Yunque's rivers. Near the 
headwaters, the gradient is less steep than further downstream where it 
also descends over boulders and waterfalls. In the upper section, the 
streambed exhibits a unique sandy bed due to its origin in the upper, 
flatter section. The palm forest is very striking along the bank, more 
so than in any other area of the forest. Water quality is high within 
the proposed designation area. Endangered animal and plant species are 
present within the proposed area.
    With the support of this Subcommittee and of the Senate as a whole, 
these wild and scenic river designations in El Yunque can become a 
reality this year. I encourage all of my colleagues to visit Puerto 
Rico and to spend worthwhile time visiting the Caribbean National 
Forest. Puerto Ricans take great pride in El Yunque, and I assure you 
it is worth the trip to visit. With your support, we can help protect 
the pristine natural wonders of El Yunque forever.

    Senator Thomas. I really do not have one. I have glanced at 
it. I am interested in hearing about these bills. I would just 
say I think there needs to be some identification of what some 
of these items are, so that if you are going to enforce these 
proposals, I think we have to make it clear what it is we are 
enforcing. That is a very general observation.
    So I look forward to hearing the comments. Thank you, sir.
    Senator Akaka. Thank you very much, Senator Thomas.
    We will include all of the written statements in the record 
in their entirety. So I ask the witnesses to please feel free 
to summarize your remarks. So please proceed with your 
testimony on all of the bills. And then we will turn to 
questions.
    So may I ask you to deliver your testimony in order of Mr. 
Kearney, Ms. Estill, and Dr. Stucky? Thank you.

 STATEMENT OF CHRISTOPHER KEARNEY, DEPUTY ASSISTANT SECRETARY 
              FOR POLICY, MANAGEMENT AND BUDGET, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Kearney. Thank you, Mr. Chairman. I will give the 
testimony on S. 2598 first, followed by S. 2727, if that is all 
right.
    Thank you for the opportunity to present the Department's 
views on S. 2598, the Enhanced Protection of our Culture 
Heritage Act of 2002. The Department generally supports the 
enhancement of statutory penalties for cultural resource 
crimes. However, it is unclear whether this bill will, in all 
instances, strengthen cultural heritage protection.
    S. 2598 would propose to change the statutory penalties for 
illegal trafficking under the Archeological Resources 
Protection Act, ARPA, for embezzlement and theft from Indian 
tribal organizations, and for illegal trafficking in Native 
American human remains and cultural items under the Native 
American Graves Protection and Repatriation Act. It is unclear 
whether S. 2598 would strengthen ARPA.
    Currently, ARPA, as read in conjunction with 18 U.S.C. 
3571, provides for a graduated system that allows for a 
citation of Class A misdemeanor, as well as a Class D or E 
felony, depending on the value of the resource and whether or 
not the offense is a first or subsequent offense.
    As currently drafted, the bill would eliminate such a 
graduated system and instead provide only the option to charge 
an ARPA offense as a Class C felony. Although increasing 
maximum fines and imprisonment terms would seem to strengthen 
ARPA, eliminating the option to charge a crime as a misdemeanor 
in fact may result in fewer prosecutions. The U.S. Attorneys' 
Offices may be reluctant to prosecute a case if the defendant's 
conduct was not so egregious as to normally warrant felony 
prosecution. And similarly, juries may be reluctant to hold the 
defendant responsible if a felony conviction appears overly 
harsh in a particular case.
    Thus, the Department supports strengthening the maximum 
penalties while retaining a graduated system that will provide 
the U.S. Attorney's Office with the discretion to charge a 
defendant with the type of violations ARPA provisions and S. 
2598 intends to address.
    Also, although the heading appears to apply only to illegal 
trafficking under ARPA, the subsection amended would actually 
cover other crimes under ARPA as well. We would like the 
opportunity to further review the bill and to work with the 
committee and the U.S. Department of Justice to craft 
appropriate language that would more clearly accomplish our 
mutual goals.
    As you know, earlier this year the Department expressed its 
support for the establishment of a sentencing guideline for the 
protection of cultural heritage resources. After a 2-year 
review, the U.S. Sentencing Commission had found that existing 
sentencing guidelines inadvertently--or inadequately, rather, 
covered a variety of offenses involving the theft, damage to, 
destruction of, or illicit trafficking in cultural resources, 
including national memorials, et cetera. And then it submitted 
the report--I apologize for that.
    Because individuals, communities, and Nations identify 
themselves through intellectual, emotional, and spiritual 
connections to places and objects, the effect of cultural 
resources crimes sometimes transcends mere monetary 
considerations. Consequently, the commission transmitted to 
Congress on May 1, 2002, a proposed guideline amendment that 
takes into account the transcendent value of these 
irreplaceable resources and punishes in a proportionate way the 
particular offense characteristics associated with the range of 
cultural resources. These amendments will take effect on 
November 1, 2002, unless Congress passes legislation 
disapproving them.
    Mr. Chairman, that concludes my statement. I would be 
pleased to answer any questions on this that you may have. As I 
say, we look forward to working with the committee to address 
the mutual goals and the issues that we have raised in the 
testimony on this bill.
    Senator Akaka. Thank you very much.
    [The prepared statement of Mr. Kearney follows:]
Prepared Statement Christopher Kearney, Deputy Assistant Secretary for 
 Policy, Management and Budget, U.S. Department of the Interior on S. 
                            2727 and S. 2598
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 2727. The Department supports 
the purpose of S. 2727 to protect paleontological resources on federal 
lands, but would like an opportunity to more fully review the bill. We 
have some general concerns about some of the legislative provisions and 
would like to follow up in writing with specific recommendations to 
address these issues.
    S. 2727 adopts the recommendation of a report submitted to Congress 
in May 2000, titled ``Fossils on Federal and Indian Lands'' (the 
Interagency Fossil Report). Concerned about the lack of unified 
policies and standards for the management of fossils on federal lands 
and the resulting deterioration and loss of fossils, Congress directed 
the Bureau of Indian Affairs, the Bureau of Land Management, the Bureau 
of Reclamation, the Fish and Wildlife Service, the Forest Service, the 
National Park Service, the Smithsonian Institution and the U.S. 
Geological Survey to develop a report assessing the need for a unified 
federal management policy. During development of the report, three 
major themes emerged from the public comments received.
    First, a majority of people who commented viewed fossils on federal 
lands as part of America's heritage. Second, they recommended that 
vertebrate fossils continue to be protected as rare and within the 
ownership of the federal government. Third, they supported the 
involvement of amateurs in the science and enjoyment of fossils, 
including the continuing availability of most plant and invertebrate 
fossils for recreational collection on lands managed by the Bureau of 
Land Management and the Forest Service. To meet these and other goals, 
the report recommended the establishment of a framework for fossil 
management, analogous to the Archeological Resources Protection Act of 
1979 (ARPA).
    Fossils are non-renewable resources which, with the exception of 
microfossils and those that make up commercially-developed minerals, 
such as coal, oil, and gas, are relatively rare and have significant 
scientific, educational and recreational values. Federal lands, the 
majority of which are in the western part of the United States, contain 
a rich array of plant, invertebrate and vertebrate fossils. For more 
than a century, land management agencies have managed fossils within 
their unique missions.
    These agencies have protected all vertebrate fossils, requiring 
permits for their excavation and removal, with the stipulation that the 
resources remain in federal ownership in perpetuity.
    In recent years, public interest in fossils has grown rapidly and 
with this interest, the commercial value of fossils also has increased. 
The unfortunate consequence has been a loss of fossils from federal 
lands, through theft and vandalism, and from the United States itself, 
through international trafficking. These crimes reduce scientific and 
public access to scientifically significant and instructive fossils and 
destroy the contextual information critical for interpreting the 
fossils.
    S. 2727 would provide a unified federal policy to ensure that 
scientifically significant fossils on certain federal lands are 
inventoried, monitored, protected, and curated consistently, while 
accommodating the agencies' distinct missions. As we understand it, the 
bill, in large measure, reflects the current practice of agencies in 
the management of fossils on federal land. Streamlining the practices 
of the various land management agencies into a unified approach will 
enhance overall management of fossils on federal lands by reducing 
public confusion and improving collaboration and cooperation among 
agencies, scientists, and the public.
    Under the agencies' existing regulations and policies, vertebrate 
fossils may only be collected with a permit for scientific and 
educational purposes. S. 2727 would codify this collection policy and 
standardize the permitting requirements among the various agencies, as 
recommended in the Interagency Fossil Report. It would ensure that 
these fossils are retained as public property and curated in suitable 
repositories for current and future generations of scientists and the 
public to study and enjoy.
    Scientists use the information from specimens in repository 
collections to build on our understanding of the history of life on 
Earth. Millions of visitors enjoy the displays offered by public 
repositories of their most spectacular and educational fossils, many 
originating from federal lands.
    One exception to the permitting requirements under S. 2727 is for 
casual collection of certain paleontological resources for scientific, 
educational and recreational uses. This important exception would 
authorize the Secretary to allow the public to casually collect common 
invertebrate and plant fossils without a permit on certain federal 
lands. The casual collection of such fossils can be an important 
component of the public's enjoyment of some federal lands and is 
generally consistent with scientific and educational goals.
    S. 2727 would codify the land managing agencies' existing 
prohibition on commercial fossil collecting from federal lands. By 
prohibiting such collecting, this legislation ensures that vertebrate 
fossils on federal lands, a rich part of America's heritage, remain in 
public hands, that they not be bought or sold, and that the federal 
government not have to use taxpayer funds to purchase fossils found on 
lands that it owns.
    S. 2727 would provide specific protection by prohibiting the 
excavation, damage, transport or sale of paleontological resources 
located on federal lands. Criminal penalties for these acts would be 
set by classification, following fine and imprisonment penalties 
imposed under federal law.
    Keeping an appropriate inventory and monitoring are crucial 
components of fossil management. S. 2727 would provide the Secretary 
with the flexibility to keep an inventory and monitor exposed fossils 
based on the site-specific geology and paleontology of their management 
units. The exposure of fossils by erosion varies, based on the type of 
rock in which they are found and local climate. Some fossils remain 
exposed at the surface for decades or centuries, while others weather 
away soon after exposure depending on the nature of their preservation.
    S. 2727 would balance the need for public access to fossils with 
the recognition that the unlimited disclosure of certain information 
about particularly significant fossils can lead to the theft or 
vandalism of those fossils. In the National Parks Omnibus Management 
Act of 1998, Congress authorized the National Park Service to withhold 
information about the nature and specific location of paleontological 
resources in park units unless certain criteria were met. S. 2727 would 
extend this same authority to the other federal land managing agencies.
    As noted above, the Department has several concerns with the bill 
as drafted. First, it is not clear whether the bill's definition of 
``federal lands'' was intended to include Indian lands. While we would 
support legislation that addresses the management and collection of 
paleontological resources on Indian lands, the framework established by 
this bill is not appropriate for paleontological resources located on 
Indian lands. For example, the bill would vest with the Secretary the 
authority to manage and protect paleontological resources and develop 
plans for keeping an inventory, monitoring, and use of paleontological 
resources on federal lands. Similarly, the Secretary would be 
authorized to issue permits for collection of paleontological resources 
or allow casual collecting of certain resources. Finally, the bill 
provides that certain paleontological resources collected remain the 
property of the United States. These and other provisions do not 
officially recognize the sovereign authority of Indian tribes and the 
role of individual Indians in managing their own land and resources. 
For this reason, the Department believes that Indian lands must be 
separately defined, and a permitting and management regime must be 
developed that is consistent with the principles of tribal sovereignty 
and the government-to-government relationship. We look forward to 
working with the Committee and Indian tribes in crafting appropriate 
provisions.
    The Department also would like to further review and possibly 
refine several of the definitions, including the definitions of 
``paleontological resource,'' ``casual collecting,'' and ``person.'' 
For example, we recommend deleting the provision that specifies that 
paleontological resources do not include energy minerals. This 
provision is redundant of the provision in the savings provision in 
Section 14(1) that states that this Act will not affect activities 
permitted under the federal mineral development laws.
    The definition, as written, also is confusing since energy minerals 
are not the only type of developed federal mineral that could contain 
fossil materials. Some minerals that are locatable under the Mining Law 
of 1872 contain fossil materials, such as marble, chemical-grade 
limestone, and gypsum. The Department also disposes through sales 
contracts mineral materials that may contain fossil materials. Finally, 
even if the federal minerals that Congress has authorized for 
development and disposal under other laws do not contain fossil 
materials, the mining or development activities themselves may disturb 
other materials that contain paleontological materials. Since we 
understand that the purpose of the savings provision in Section 14 is 
to make certain that this Act will not affect federal mineral 
development in any way, we strongly urge the Committee to adopt the 
amendments that we will propose to clarify its intent.
    In addition, the Department recommends another amendment that would 
provide assurance that this Act will not affect other uses such as 
federally permitted grazing and timber activities. Ensuring that 
federal mineral development and certain other permitted activities are 
not subject to this Act should be a critical component of this bill.
    The Department would like to further review penalty and forfeiture 
provisions to make certain that the system outlined in the legislation 
is the best way to ensure that the Department's goals are met in the 
most efficient and effective way.
    Finally, the Department suggests amending Section 14 so that the 
Act does not create a third-party right of action. Such actions can be 
costly and duplicative and can compromise law enforcement priorities. 
Once the Department has had the opportunity to review these and other 
issues in the bill, we will provide the Committee with our suggested 
amendments. We look forward to working with the Committee on this 
important bill.
    As the prices of fossils rise, the federal land managing agencies 
will be under increasing pressure to both protect scientifically 
significant fossil resources and to ensure their appropriate 
availability to the general public. S. 2727 would create a single 
legislative framework for paleontological resource management that will 
facilitate sharing of resources, personnel and partnership 
opportunities across agency lines.
                                s. 2598
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 2598, Enhanced Protection of 
Our Cultural Heritage Act of 2002. The Department generally supports 
the enhancement of statutory penalties for cultural resource crimes, 
however, it is unclear whether this bill will, in all instances, 
strengthen cultural heritage protection.
    S. 2598 would propose to change the statutory penalties for illegal 
trafficking under the Archaeological Resources Protection Act (ARPA; 16 
U.S.C. 470ee), for embezzlement and theft from Indian tribal 
organizations (18 U.S.C. 1163), and for illegal trafficking in Native 
American human remains and cultural items under the Native American 
Graves Protection and Repatriation Act (NAGPRA; 18 U.S.C. 1170).
    It is unclear whether S. 2598 would strengthen ARPA. Currently, 
ARPA, as read in conjunction with 18 U.S.C. 3571, provides for a 
graduated system that allows for citation of a Class A misdemeanor as 
well as a Class D or E felony, depending on the value of the resource 
and whether or not the offense is a first or subsequent offense. As 
currently drafted, S. 2598 would eliminate such a graduated system, and 
instead provide only the option to charge an ARPA offense as a Class C 
felony. Although increasing maximum fines and imprisonment terms would 
seem to strengthen ARPA, eliminating the option to charge a crime as a 
misdemeanor, in fact, may result in fewer prosecutions. U.S. Attorneys 
Offices may be reluctant to prosecute a case if the defendant's conduct 
was not so egregious as to normally warrant felony prosecution. 
Similarly, juries may be reluctant to hold a defendant responsible if a 
felony conviction appears overly harsh in a particular case. Thus, the 
Department supports strengthening the maximum penalties, while 
retaining a graduated system that will provide the U.S. Attorneys 
Office with the discretion to charge a defendant with an offense that 
more appropriately fits the conduct involved. In addition, it is 
unclear what type of violations the ARPA provision in S. 2598 intends 
to address. Although the heading appears to apply only to illegal 
trafficking under ARPA, the subsection amended would actually cover 
other crimes under ARPA as well. We would like an opportunity to 
further review the bill and to work with the Committee and the U.S. 
Department of Justice to craft appropriate language that would more 
clearly accomplish our mutual goals.
    Earlier this year, the Department expressed its support for the 
establishment of a sentencing guideline for the protection of cultural 
heritage resources. After a two-year review, the United States 
Sentencing Commission had found that existing sentencing guidelines 
inadequately covered a variety of offenses involving the theft of, 
damage to, destruction of, or illicit trafficking in cultural 
resources, including national memorials, archeological resources, 
national parks, and national historic landmarks. Because individuals, 
communities, and nations identify themselves through intellectual, 
emotional, and spiritual connections to places and objects, the effect 
of cultural resources crimes sometimes transcends mere monetary 
considerations. Consequently, the Commission transmitted to Congress on 
May 1, 2002 a proposed guideline amendment that takes into account the 
transcendent value of these irreplaceable resources, and punishes in a 
proportionate way the particular offense characteristics associated 
with the range of cultural resources crimes. These amendments will take 
effect on November 1, 2002, unless Congress passes legislation 
disapproving them.
    Though most Americans may think of looting as a crime that takes 
place during times of civil unrest, the Department has come to know 
better. Surprisingly, cultural resource crimes occur frequently and 
have been occurring with increased frequency on our federal lands. One 
Bureau of Land Management archeologist in Utah estimates that 80 
percent of the surface artifacts at one site have disappeared within 
the last two to three years. We have seen a shift in the type of looter 
who commits these crimes. Countless magazine and newspaper articles and 
television shows discussing cultural resources has led to a dramatic 
drop in offenses committed by ``the casual looter,'' a recreationist 
who picks up an artifact while hiking or damages an archeological site. 
Although this type of theft and damage still occurs, these incidents 
are uncommon. A more recent trend is the theft and damage of cultural 
resources by ``professional looters,'' hard-core looters who sell the 
resources for monetary gain and often have criminal histories, usually 
drug-related or violence-related. Professional looters educate 
themselves about the locations of archeological sites and the kinds of 
artifacts and grave goods that may be found at those sites. Many of 
them are technology savvy, using Global Positioning Systems (GPS) and 
conducting extensive computer research to locate specific sites.
    In order to maximize the impact of our law enforcement efforts, we 
have joined forces with other federal agencies to educate law 
enforcement officers regarding the pervasive criminal activity. Until 
we are able to completely deter such criminal conduct, we must work 
hard to use the criminal and civil enforcement tools at our disposal to 
diminish the looting of our national and Indian treasures. In working 
closely with the Department of Justice, United States Attorneys, and 
federal law enforcement officials, we have found that effective 
prosecutions under ARPA and NAGPRA receive positive publicity and raise 
the public awareness of the seriousness of these crimes. We believe 
that such prosecutions can have a positive deterrent effect.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Committee may have.

    Senator Akaka. Ms. Estill.

   STATEMENT OF ELIZABETH ESTILL, DEPUTY CHIEF, PROGRAMS AND 
                  LEGISLATION, FOREST SERVICE

    Ms. Estill. Okay. Mr. Chairman, thank you very much, and 
members, for allowing us the opportunity to be here today. I am 
Elizabeth Estill, the Deputy Chief for Programs and Legislation 
for the USDA Forest Service.
    I am planning to provide comment on two of these bills, on 
S. 2727, the Paleontological Resources Preservation Act, and 
H.R. 3954, the Caribbean National Wild and Scenic Rivers Act. 
And I will summarize our comments on both of those in that 
order.
    National Forests and Grasslands contain an enormously 
valuable array of fossils. Unified guidelines for 
paleontological resource management and special protection for 
vertebrate paleontological resources are greatly needed. 
People's legitimate interest in fossils is at an all-time high. 
Unfortunately, so is the amount of illegal activity, such as 
theft and vandalism.
    USDA supports the purpose of S. 2727 to establish a 
comprehensive national policy for preserving and managing 
paleontological resources on Federal lands. The Department has 
concerns about one provision and would like to work with the 
committee with written comments to address this issue.
    We, the Forest Service, currently manage paleontological 
resources under a patchwork of laws that do not specifically 
address unique characteristics or provide adequate management 
and protection of the resource, including the Organic 
Administration Act of 1897, the Archeological Resource 
Protection Act of 1979, and the Federal Cave Resources 
Protection Act of 1988.
    The latter two statutes only protect certain kinds of 
paleontological resources where they are associated either with 
archeological resources or cave resources. So our management 
strategies and our protection strategies are also patched 
together. And they are not as consistent, nor are they as 
effective, as we would like.
    Between 1991 and 1996, a period when I was the regional 
forester responsible for this particular area, a full one-third 
of all fossil sites inventoried on the Oglala National 
Grassland in Nebraska were found to have been vandalized. In 
addition to the market value of the fossils--and we are talking 
many millions of dollars--valuable data was lost to science and 
to the public.
    In 1996, in a case involving theft on a National Forest in 
California, which was prosecuted under civil authority by the 
Department of Justice, it was pointed out that more specific 
statutes and regulations related to theft of Federal fossils 
truly were needed.
    S. 2727 directs the Secretary of the Interior and the 
Secretary of Agriculture to manage and protect paleontological 
resources using scientific principles. The bill recognizes the 
nonrenewable nature of fossils and defines paleontological 
resources as ``fossil remains preserved in or on the Earth's 
crust.'' If enacted, the bill would establish noncommercial 
collection provisions, including permit requirements for 
scientific and educational purposes using uniform and 
consistent data and criteria.
    S. 2727 recognizes that paleontological resources are 
Federal property and that the fossil, as well as the associated 
field data and other records, will be preserved and made 
available to the public. S. 2727 is also important to the 
Forest Service because it recognizes casual collecting of 
invertebrate and plant fossils for recreational, noncommercial 
use as a valid public activity on National Forests.
    S. 2727 provides for uniform criminal penalties for all the 
Federal managing agencies. Currently there is a real mixture of 
sentencing laws, regulations, and guidelines that has created 
some confusion for U.S. attorneys and magistrates.
    Mr. Chairman, paleontological resources, especially 
vertebrate fossils, are heritage resources. They are evidence 
of the past history of life on Earth. They provide 
opportunities for the public to learn more about ancient Earth 
ecosystems and the development of life from research and study 
of these resources.
    The Forest Service is committed to their protection while 
providing opportunities for research, education, and 
recreation. The Paleontological Resources Protection 
Preservation Act would help secure the authority of the Forest 
Service to manage and protect all paleontological resources on 
National Forest System lands.
    With regard to H.R. 3954, the Caribbean National Forest 
Wild and Scenic Rivers Act of 2002, H.R. 3954 amends a section, 
actually section 3(a), of the Wild and Scenic Rivers Act to 
designate three rivers in Caribbean National Forest in the 
Commonwealth of Puerto Rico as components of the National Wild 
and Scenic River System.
    The segments to be designated by H.R. 3954 include 4.5 
miles of the Rio Mameyes, 2.1 miles of the Rio de la Mina, and 
2.3 miles of the Rio Icacos. All three of these stream segments 
were recommended for inclusion in the Wild and Scenic River 
System through the revision of the Caribbean National Forest 
and Luquillo Experimental Forest Plan.
    To cut to the chase, the Department supports H.R. 3954.
    And this concludes my statement. I would be happy to answer 
any questions.
    Senator Akaka. Thank you very much.
    [The prepared statement of Ms. Estill follows:]
  Prepared Statement of Elizabeth Estill, Deputy Chief, Programs and 
                      Legislation, Forest Service
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to be here today. I am Elizabeth Estill, Deputy Chief for 
Programs and Legislation, USDA Forest Service. I will provide the 
Department's comments on two bills: S. 2727 Paleontological Resources 
Preservation Act, and H.R. 3954 Caribbean National Forest Wild and 
Scenic Rivers Act.
    Unified guidelines for paleontological resources management and 
special protection for vertebrate paleontological resources are greatly 
needed on National Forest lands. Forest users, amateurs and scientists 
alike, are demanding opportunities for recreation, education, 
interpretation, and the scientific study of fossils. As these 
legitimate demands increase so does the amount of illegal activity such 
as theft and vandalism. Therefore, clearly defined, consistent 
penalties to deter theft and vandalism of fossils from federal lands 
are also needed. USDA supports the purpose of S.2727 to establish a 
comprehensive national policy for preserving and managing 
paleontological resources on Federal lands. However, the Department has 
concerns about some of the legislative provisions and would like to 
provide the committee with written comments to address these issues.
    The Forest Service currently manages paleontological resources 
under a patchwork of laws that do not specifically address the unique 
characteristics or provide adequate management and protection of the 
resource. These laws include the Organic Administration Act of 1897, 
the Archaeological Resource Protection Act of 1979, and the Federal 
Cave Resources Protection Act of 1988. The later statutes only protect 
paleontological resources when they are associated with archeological 
resources, or when they occur in caves, respectively. Between 1991 and 
1996, a full one-third of all fossil sites inventoried in the Oglala 
National Grassland in Nebraska were found to have been vandalized, and 
as a result, valuable data was lost to science and to the public. In 
1996, a case involving fossil theft on National Forest System lands in 
California, which was prosecuted under civil authority by the 
Department of Justice and ultimately settled out of court, pointed out 
the need for more specific statutes and regulations related to theft of 
federal fossils.
    S. 2727 directs the Secretary of the Interior and the Secretary of 
Agriculture to manage and protect paleotontological resources using 
scientific principles. The bill recognizes the non-renewable nature of 
fossils and defines paleontological resources as fossilized remains 
preserved in or on the Earth's crust. The bill goes on to separate 
these resources from archeological resources, covered under the 
Archaeological Resources Protection Act (ARPA), cultural resources, 
covered under statutes such as the National Historic Preservation Act 
and the Native American Graves Protection and Repatriation Act (NAGPRA) 
and mineral resources.
    If enacted, the bill would establish non-commercial collection 
provisions including permitting requirements for scientific and 
educational purposes using uniform and consistent criteria. S. 2727 
recognizes that paleontological resources are federal property, and 
that the fossil as well as the associated field data and other records 
will be preserved and made available to the public. S. 2727 is also 
important to the Forest Service because it recognizes casual collecting 
of invertebrate and plant fossils for recreational, non-commercial use 
as a valid public activity on National Forests for which a permit may 
not be required where the collecting is in compliance with land 
management statutes and with the act.
    S. 2727 provides for uniform criminal penalties for all the federal 
managing agencies for theft and damage of paleontological resources. 
Currently, there is a complex mix of sentencing laws, regulations and 
guidelines that has created confusion for United States attorneys and 
magistrates. For example, for the Forest Service, a first offense is a 
Class B Misdemeanor, punishable for not more than 6 months 
imprisonment, or $5,000 fine, or both. For the Bureau of Land 
Management (BLM), it is a Class A Misdemeanor, which is punishable for 
not more than 1-year imprisonment, or $100,000, or both [18 USC 3571]. 
The penalties defined in S. 2727 are consistent with proposed 
recommendations of the U.S. Sentencing Commission for increased 
penalties for cultural heritage resources.
    Mr. Chairman, paleontological resources, especially vertebrate 
fossils, are heritage resources. They are evidence of the past history 
of life on Earth. They provide opportunities for the public to learn 
more about ancient Earth ecosystems and the development of life from 
research and study of these resources. The Forest Service is a steward 
of these heritage resources and is committed to their protection while 
providing opportunities for research, education, and recreation. The 
Paleontological Resources Preservation Act would help secure the 
authority of the Forest Service to manage and protect all 
paleontological resources on National Forest System lands.
 h.r. 3954 caribbean national forest wild and scenic rivers act of 2002
    H.R. 3954 Caribbean National Forest Wild and Scenic Rivers Act 
amends Section 3(a) of the Wild and Scenic Rivers Act (16 U.S.C. 
1274(a)) to designate three rivers in the Caribbean National Forest in 
the Commonwealth of Puerto Rico as components of the National Wild and 
Scenic River System. The segments to be designated by H.R. 3954 include 
4.5 miles of the Rio Mameyes, 2.1 miles of the Rio de la Mina, and 2.3 
miles of the Rio Icacos. All three stream segments were recommended for 
inclusion in the Wild and Scenic Rivers System through the revision of 
the Caribbean National Forest/Luquillo Experimental Forest Plan. H.R. 
3954 would allow, subject to the Secretary's discretion, installation 
and maintenance of data collection and transmission facilities, 
construction and maintenance of structures to allow monitoring of 
threatened and endangered species, and construction and maintenance of 
trails for research facilities, consistent with protecting the 
characteristics of the river that merited its designation as a wild, 
scenic, or recreation river.
    The Department supports H.R. 3954.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions from you and the other Members of the 
Subcommittee.

    Senator Akaka. Dr. Stucky.

   STATEMENT OF RICHARD STUCKY, Ph.D., PRESIDENT, SOCIETY OF 
 VERTEBRATE PALEONTOLOGY, AND VICE PRESIDENT, DENVER MUSEUM OF 
                       NATURE AND SCIENCE

    Dr. Stucky. Thank you, Mr. Chairman. I am absolutely 
honored to have the privilege of presenting this testimony 
before your committee. I am the president of the Society of 
Vertebrate Paleontology, which represents 2,100 different 
professional scientific paleontologists, amateur 
paleontologists, and commercial paleontologists. I am also the 
vice president of the Denver Museum of Nature and Science. It 
has 1.5 million visitors per year and sees 400,000 children, 
school children, who enjoy the dinosaurs at our museum.
    My testimony is in support of S. 2727. Dinosaurs and 
paleontology are the windows through which most young children 
get their first interest and introduction to science. 
Heightened interest in the media has absolutely raised the 
public interest in dinosaurs and in the history of life and has 
inspired greater curiosity. Fossils from our public lands 
represent a significant national resource. Of 1.8 million 
vertebrate fossils in public museums and private museums 
surveyed in 1991, 49 percent of those specimens came from 
public lands.
    This greater curiosity, the specimens we have on public 
lands and so on, have also unfortunately led to a black market 
trade in fossils. S. 2727--and I know you have reviewed some of 
these things, but I wanted to review those as well--has no 
impact whatsoever on private property or on private lands. It 
does not change any aspect, any current aspect, of the access 
to fossil on public lands by amateurs, educators, 
professionals, or hobbyists. Amateurs and educators will still 
be able to engage in hobby collecting. It does not require any 
kind of public investment to collect or curate specimens.
    What the bill does is it codifies into uniform guidelines 
for collecting fossils from all different types of Federal 
lands. It inspires greater cooperation among educators, 
amateurs, the general public, and land managers and 
professional scientists. It also provides for stronger 
penalties for violations of the act. And it raises the ethical 
awareness of the value of this significant national treasure.
    Why should we have the Paleontological Resources 
Preservation Act? First of all, fossil theft and vandalism. 
Fossils are a nonrenewable resource that is the only record of 
the history of life on our planet. Each fossil represents a 
unique snapshot of past life. Because fossils are nonrenewable, 
their loss or destruction is irreversible. And once taken out 
of their original context, the scientific significance or the 
educational significance is lost.
    Significant fossils on public lands are a national treasure 
owned by all people. And they should become a part of our 
national heritage. Preservation and study of fossils with 
educational and scientific values is the real goal of this 
legislation. Since the inception of the high interest in 
fossils in the 1970's, theft and vandalism has become much more 
common. A number of cases have been prosecuted, but many 
fossils have been stolen, vandalized and lost forever from our 
public record.
    One of our volunteers at our museum reported that they had 
found an area where the specimens, dinosaur specimens, partial 
skeletons, had been bulldozed in order for somebody to come and 
pick fragments up so that they could be sold as just curios, 
dinosaur bone curios.
    On the national parks between 1995 and 1998, there were 731 
cases of fossil theft or vandalism. And we have heard about the 
one-third of all fossil sites in Oglala National Grasslands 
being pilfered.
    In my personal experience, I found places where graveyards 
of turtles have been totally destroyed by individuals, where 
skeletons of an animal, where the skull had been removed for 
some vandal to take off to put in their collection. In some 
cases, fossils have absolutely been fabricated to make them 
much more valuable on the market.
    Fines are very small right now for the values of specimens 
that are so large. A scientific and educationally valuable 
fossil may sell for thousands, if not millions, of dollars. 
Even a fossil fish or a turtle shell may sell for up to $5,000, 
a dinosaur skull, $100,000, or one dinosaur skeleton has 
actually sold for over $7 million. Fines levied today are a 
mere slap on the wrist for the specimens that are worth so much 
money.
    The risk of capture and conviction on the part of thieves 
and vandals is very, very small. S. 2727 raises the penalties. 
It will not prevent ongoing theft, but it will raise the 
ethical awareness and standards in order to minimize the loss 
of this valuable resource.
    Support for the basic principles of the bill have been 
endorsed by a number of groups, including the Western Interior 
Paleontological Society, one of the largest amateur societies 
in the country, and the Natural Science Collection Alliance, 
which is an organization that consists of museum and public and 
private repositories that hold our specimens.
    The Paleontological Society and the Society of Vertebrate 
Paleontology together represent 90 percent of all 
paleontologists, as well as a number of amateurs. And together 
they have provided a joint statement that supports the 
underlying principles of the bill.
    In addition to the many amateurs and professional 
scientists who support the principles, the American people are 
in support. In a random survey of 300 people conducted by an 
individual in a national public marketing firm, 85 percent of 
the American public that were surveyed agreed that fossils of 
animals with backbones are a part of the national heritage and 
should be protected.
    One important suggestion on S. 2727 is that the definition 
of public lands should be expanded to include lands 
administered by the Army Corps of Engineers. There are many 
valuable resources and projects going on on these lands. The 
bill raises the awareness of the value of significant fossils 
and their importance to our national heritage. It will inspire 
new cooperative partnerships on the part of amateurs, the 
public, professional scientists, educators, and land managers. 
It raises the ethical standard for preserving our national 
heritage. It promotes better practice in the scientific 
enterprise, which has been so important to the economic 
prosperity of our country.
    And I would be very happy to answer any questions that you 
all might have.
    Senator Akaka. Thank you.
    [The prepared statement of Dr. Stucky follows:]
  Prepared Statement of Richard Stucky, Ph.D., President, Society of 
 Vertebrate Paleontology, and Vice President, Denver Museum of Nature 
                              and Science
    I'm very honored to testify in support of S. 2727, The 
Paleontological Resources Preservation Act. A heightened public 
interest in dinosaurs and paleontology has given paleontologists an 
unprecedented opportunity to share with the public the excitement of 
recent advances in this fascinating science that records the history of 
life on our planet. Dinosaurs and fossils are now the window through 
which most young children get their first introduction to science, 
inspiring a life-long interest in science. While it is gratifying that 
the public has become more interested in the history of life on our 
planet, and while paleontologists have been eager to share this 
knowledge, heightened visibility has also led to the increased 
commercialization and vandalism of fossils. This has led to a black 
market trade in fossils from foreign countries (in violation of export 
laws) and to the theft of fossils from public and private lands in the 
United States.
    There are several points that should be made regarding S. 2727. 
First, the bill does not change any current aspect of access to fossils 
on public lands on the part of amateurs, educators, or professional 
scientists. It does codify into uniform guidelines current land 
management authority and practice. What it does do is increase the 
awareness of the cooperative spirit of amateurs and professionals and 
provides for stronger penalties for those who would destroy or steal 
valuable fossils from our public heritage. The bill has no impact on 
private lands or on privately owned fossils. The bill essentially 
raises the ethical awareness and standards for preserving fossils that 
come from public lands. The legislation would adopt the basic 
principles endorsed by an interagency report requested by Congress 
published in 2000, ``Report of the Secretary of Interior: Fossils on 
Federal and Indian Lands.''
    We do need stronger penalties for theft and vandalism to fossils 
from public lands. Sadly, some of the most egregious cases of theft and 
vandalism have occurred on federal lands belonging to all Americans.
    In 1991, the BLM discovered an illegal commercial collection taking 
place on federal land. The BLM contacted the Museum of the Rockies at 
Montana State University Bozeman and asked them to collect the specimen 
and hold it in the public trust. As a result of this, the most complete 
Allosaurus ever found, which this commercial collector intended to sell 
to a private collector overseas, belongs to all the people of the 
United States. As a result of careful analysis of injuries sustained by 
this dinosaur and preserved in the bones, this particular specimen has 
yielded a treasure trove of information about how Allosaurus lived. The 
commercial collector, who had attempted to steal this fossil and the 
information it tells all of us, was never prosecuted.
    Unfortunately, the American people were much less fortunate in the 
case of another Allosaurus find. In a case filed in court last fall 
prosecutors alleged that an Allosaurus skeleton was stolen from federal 
land southeast of Freemont Junction, Utah and sold to a Japanese buyer 
for $400,000. BLM official stated at the time of the filing of the 
complaint that ``Because it was crudely collected, we have lost any 
chance to study the way the skeleton lay in the ground, how it was 
buried, what happened to it after death, and other plants or animals 
that may have been buried with it. We have lost a priceless piece of 
America's natural heritage.'' According to allegations in the still 
pending civil complaint, Barry James was contacted in 1991 by Rocky 
Barney of Richfield, Utah. Barney told James he had found what appeared 
to be an Allosaurus on federal land. Barney asked James if he would be 
interested in buying the Allosaurus. James told Barney he would be 
interested in buying the fossil and offered advice on how to excavate 
the dinosaur. James privately told Brown that while it was illegal to 
remove a fossil from federal land, it was worth the risk. If caught, 
they would only receive a ``slap on the wrist,'' the complaint charges. 
(BLM, 2001)
    The escalating commercial value of fossils has created a situation 
where the limited penalties that exist are not sufficient to deter 
illegal collecting. In the Report ``Fossils on Federal and Indian 
Lands'' it was noted that ``the fines currently imposed on fossil 
thieves are usually low compared to the lost resources. For example, 
one man who had stolen fossils from a national park over a period of 
years was fined a total of $50.'' (Babbitt, 2000 p. 29)
    In many cases the theft which is occurring is so widespread and 
occurring so rapidly that we don't even know what is being lost. In a 
study commissioned by the Forest Service, it was found that almost one-
third of the paleontological sites surveyed in the Oglala National 
Grassland showed evidence of unauthorized collecting. In 1999, the 
National Park Service identified 721 documented incidents of 
paleontological resource theft or vandalism, many involving multiple 
specimens, in the national parks between 1995 and 1998. (Babbitt, 2000 
p. 28)
    The increased commercial market for fossils has sometimes led to 
distortion of the fossil record. In some cases fossils have been 
altered in order to inflate their commercial value. And we have lost 
significant specimens from further scientific investigation and 
exhibit, making it harder for people to see and examine for themselves 
the authentic objects in our museums. It's critical that scientifically 
significant fossils from federal lands, i.e. that portion of the fossil 
record that belongs to all the people, remain in the public domain so 
that everyone--children and adults, amateur and professional 
paleontologists may benefit from this irreplaceable resource.
    The fossil record is our only way of learning about past life on 
our planet, and it's important for all Americans to have the 
opportunity to learn from this record. I've talked with many scientists 
in various disciplines, and it's amazing how many first became 
interested in Science through their interest in dinosaurs and other 
fossils. For this reason we're happy to see that S. 2727 calls for the 
establishment of a program to increase public awareness about the 
significance of paleontological resources. As we confront important 
public policy issues including climate change and the extinction of 
species the fossil record provides a critical historical basis to help 
guide our decisions.
    I'd like to share a little bit of information with you about how 
paleontological research is done and why this legislation is essential 
to ensuring maximal public benefit from this research.
    Many kinds of fossils, including those of most vertebrates, are 
rare for several reasons. Many organisms are not readily preserved as 
fossils because they do not have hard parts. Only rather unusual 
sedimentary rock environments preserve soft parts long enough to become 
fossilized. Also, organisms can only be preserved where sediments 
accumulate at a fairly high rate. Most organic remains are not buried 
fast enough to contribute to the fossil record. Vertebrate fossils are 
much less common than invertebrate and plant fossils across all 
sedimentary rocks. Although we are fortunate to have some exceptions, 
spectacular deposits of diverse and complete organisms are rare over 
the history of the earth. The majority of fossil vertebrate species are 
extremely rare or are represented by a single unique specimen. For 
these reasons the chances of any vertebrate becoming a fossil are very 
small. Thus, individual vertebrate fossils are extremely valuable as 
bearers of information about the past. Furthermore, fossils of extinct 
groups are not renewable. More fossils will be discovered and 
collected, but always from a finite supply. Importantly more than 99% 
of all life forms that have ever lived on earth are extinct and are 
only known by fossils.
    The rocks in which the fossils are found provide information about 
the environment of preservation and its climate, the age of the 
fossils, position in a historical sequence, and paleogeographic 
location. Fossil assemblages provide information about ecological 
interactions and communities.
    A fossil collected without this information has lost much of its 
value, and we know little more than that this animal lived and died. In 
contrast, when contextual data are collected and studied, we begin to 
understand how the animal lived and its place in the balance of nature. 
As paleontologists and geologists learn more ways to interpret ancient 
environments and ecological communities from fossil assemblages in 
their original context, this information becomes more and more valuable 
and important. These contextual data allow us to bring these animals to 
life for 10s of millions of visitors to our museums and to the many 
young children who have hands-on experience with original specimens.
    The understanding of evolutionary processes and relationships comes 
primarily from comparing the skeletons from different animals to each 
other. In order to do this; researchers must be able to compare new 
specimens with those previously unearthed. Oftentimes a new analysis 
many years later shows our earlier understanding was incomplete or 
mistaken. For example, when Dr. John Ostrom was doing research on 
Deinonychus, a dinosaur similar to the Velociraptors popularized in 
Jurassic Park, he found that a specimen thought to be a carnivorous 
dinosaur was actually the extremely rare early bird Archaeopteryx. 
Ostrom's research was critical in establishing the link between 
dinosaurs and birds that proud young dinosaur aficionados lecture their 
parents about. Only when specimens are properly collected and curated 
in public institutions can researchers access these specimens in order 
to make these comparisons. And when these comparisons and 
interpretations are made, education and the general public greatly 
benefit by having access to this new interpretive knowledge through 
media reports, books, and the Internet.
    Several years ago, the Society of Vertebrate Paleontology (SVP) 
added a Statement of Ethics to its bylaws to help the society and its 
members handle ethical issues such as those raised by increasing 
commercialization. Ted Vlamis, a fellow SVP member and amateur 
paleontologist, summarized the SVP Ethics Statement and a subsequent 
Joint Position Statement by the Paleontological Society as follows: 
``The SVP Ethics Statement contains several principles that are 
particularly noteworthy for their public policy implications. It begins 
by recognizing that vertebrate fossils are usually unique or rare, and 
that they are part of our natural heritage. The Ethics Statement 
assigns to vertebrate paleontologists the responsibility of ensuring 
that pertinent detailed contextual data are recorded when vertebrate 
fossils are collected and notes that collection and preparation should 
be done by properly trained personnel. The importance of proper 
curation and the assurance of access for future researchers are 
recognized by the Ethics Statements' provision that scientifically 
significant vertebrate specimens should be curated and accessioned in 
institutions charged in perpetuity with conserving fossil vertebrates 
for scientific study and education. The Ethics Statement further 
recognizes the responsibility of paleontologists to expeditiously 
disseminate information to other paleontologists and to the general 
public. Perhaps the most important part of the SVP Ethics Statement 
from a public policy perspective is the conclusion that ``The barter, 
sale, or purchase of scientifically significant vertebrate fossils is 
not condoned unless it brings them into, or keeps them within, a public 
trust'' (SVP, 1994).
    In order to ensure that the SVP's public policy recommendations and 
initiatives regarding fossils on federal lands were also reflective of 
the wider paleontological community, the SVP initiated a dialogue with 
the Paleontological Society. Together these two scientific societies 
include over 2500 individuals, representing more than 90% of 
professional paleontologists and a very large proportion of amateur 
paleontologists. This dialogue culminated in 1999 when the two 
societies issued the joint position statement Paleontological Resources 
on U.S. Public Lands. The PS-SVP joint statement advocates public 
policy which, like the SVP Ethics Statement, recognizes that fossils 
are part of our scientific and natural heritage. It goes on to find 
that fossils on public lands belong to all the people of the United 
States and that, as such, they need special protection, and should not 
be collected for commercial purposes. The joint statement concludes 
that the two societies strongly support actions which ``protect fossils 
on public lands as finite natural resources; encourage responsible 
stewardship of fossils for educational, recreational, and scientific 
purposes; promote legitimate access to, and responsible enjoyment of, 
paleontological resources on public lands by the public and amateur 
paleontologists for personal use, and by the professional 
paleontological community, including professional paleontologists from 
outside the U.S.; and bring fossils from public lands into public 
institutions where they are available for purposes of education and 
scientific research'' (PS and SVP, 1999). (Summary from Vlamis, 2001)
    The SVP had a survey of American public opinion conducted by Mktg, 
Inc., a market research firm that has conducted over 10,000 studies 
since its founding in 1979. This telephone survey of 300 American 
adults analyzed people's responses both to a hypothetical situation 
involving the discovery of a fossil, and to a series of more general 
questions pertaining to fossils. A random calling program was utilized 
which gave every telephone in the US the same probability of being 
called. The survey results have an accuracy rate of +/- 7%.
    Several key points are worth noting, which demonstrate public 
support for the principles embodied in S. 2727. 85.3 percent agreed 
with the statement that that ``Fossils of animals with backbones are 
part of our national heritage and should be protected in much the same 
way that archeological remains (human artifacts) are now protected"; 
and, 88.0 percent agreed that ``If laws are created to restrict the 
collection of fossils on public lands, the only people who should be 
allowed to collect them are people with appropriate skills for doing so 
and with a permit for that purpose. All the fossils that they find 
should go into museums and universities prepared to protect them'' 
(Vlamis, 2001). The American people want our national heritage 
preserved as a national treasure.
    The membership of the SVP includes amateur as well as professional 
paleontologists, and fostering cooperation between these groups is a 
major mission of the SVP. We're pleased that S. 2727 puts no new 
restrictions on amateur fossil collecting on federal lands--everything 
an amateur collector can legally do today would still be legal after 
the passage of S. 2727. At my own institution, the Denver Museum of 
Nature and Science, we enjoy substantial cooperation among our 
scientists and amateurs. Our more than several hundred amateur 
volunteers devote over 30,000 hours each year of their time to our 
institution. They have collected literally thousands of specimens from 
public lands that have allowed our collections to grow significantly, 
enabling more scientific study and public awareness of paleontology. 
Last year alone more than a dozen of our volunteers either published a 
scientific paper on fossils in a scientific peer-reviewed journal or 
presented a paper at an annual meeting of a professional scientific 
society. Some of these amateurs also published on an entirely new 
dinosaur species previously undiscovered.
    In a poll taken in 1991 of America's major museums, more than 49% 
of the 1.8 million specimens of fossil dinosaurs and vertebrates in 
their collections were from public lands. Of the overall total, 
amateurs had donated more than 100,000 specimens to museums and 
significantly less than 1% of the specimens came from commercial 
collectors (Stucky and Ware, 1991).
    One small but important suggestion we would make for improving S. 
2727 would be to expand the definition of ``Federal lands'' to include 
lands administered by the Army Corps of Engineers. There is a great 
deal of important research occurring on these lands, and they are very 
accessible to poachers.
    I spoke earlier of some major problems that are occurring because 
of the lack of a law like S. 2727. I'd like to conclude by telling you 
about one example of the kind of cooperation between federal agencies 
and paleontologists. Dinosaur paleontologist Jack Horner of the Museum 
of the Rockies at Montana State University, Bozeman, is in the fourth 
year of a field study in the Charles M. Russell National Wildlife 
Refuge in eastern Montana. To date eight Tyrranosaurus rex skeletons 
have been discovered. The field study is yielding valuable information 
about this most famous of the dinosaurs and the environment in which it 
lived. The work of the Museum of the Rockies has made it possible for 
the National Museum of Natural History, Smithsonian Institution, to 
collect one of these specimens. Thus, our National Museum will be able 
to display an actual specimen of this celebrated American dinosaur for 
the first time. The passage of S. 2727 will foster more and more 
opportunities like this and inspire the long-term preservation of these 
priceless national resources.
                               References
Bureau of Land Management. Press Release dated September 4, 2001.
Babbitt, B. 2000. Report of the Secretary of the Interior: Fossils on 
        Federal and Indian Lands.
Paleontological Society and Society of Vertebrate Paleontology. 1999. 
        Joint Position Statement by The Paleontological Society and The 
        Society of Vertebrate Paleontology on Paleontological Resources 
        on U.S. Public Lands.
Society of Vertebrate Paleontology. 1994. Bylaws, Article 9.
Stucky. R.K., and S. Ware. 1991. Questionnaire concerning fossil 
        collecting on Federal Lands. DMNH, Denver.
Vlamis. T.J., 2001, in Proceedings of the 6th Fossil Resource 
        Conference. Santucci, V.L. and McClelland, L. (eds) Geologic 
        Resources Division Technical Report NPS/NRGRD/GRDTR-O1/O1 
        September 2001.
                               appendix 1
          Society of Vertebrate Paleontology By-Laws on Ethics
Article 9. Statement of Ethics
    Several goals for the Society of Vertebrate Paleontology follow 
from its mission statement (Constitution Article 1): to discover, 
conserve, and protect vertebrate fossils and to foster the scientific, 
educational, and personal appreciation and understanding of them by 
amateur, student and professional paleontologists, as well as the 
general public. Fossil vertebrates are usually unique or rare, 
nonrenewable scientific and educational resources that, along with 
their accompanying contextual data, constitute part of our natural 
heritage. They provide data by which the history of vertebrate life on 
earth may be reconstructed and are one of the primary means of studying 
evolutionary patterns and processes as well as environmental change.
    It is the responsibility of vertebrate paleontologists to strive to 
ensure that vertebrate fossils are collected in a professional manner, 
which includes the detailed recording of pertinent contextual data 
(e.g. geographic, stratigraphic, sedimentologic, taphonomic).
    It is the responsibility of vertebrate paleontologists to assist 
government agencies in the development of management policies and 
regulations pertinent to the collection of vertebrate fossils, and to 
comply with those policies and regulations during and after collection. 
Necessary permits on all lands administered by federal, state, and 
local governments, whether domestic or foreign, must be obtained from 
the appropriate agency(ies) before fossil vertebrates are collected. 
Collecting fossils on private lands must only be done with the 
landowner's consent.
    Fossil vertebrate specimens should be prepared by, or under the 
supervision of, trained personnel.
    Scientifically significant fossil vertebrate specimens, along with 
ancillary data, should be curated and accessioned in the collections of 
repositories charged in perpetuity with conserving fossil vertebrates 
for scientific study and education (e.g. accredited museums, 
universities, colleges, and other educational institutions).
    Information about vertebrate fossils and their accompanying data 
should be disseminated expeditiously to both scientific community and 
interested general public.
    The barter, sale, or purchase of scientifically significant 
vertebrate fossils is not condoned unless it brings them into, or keeps 
them within, a public trust. Any other trade or commerce in 
scientifically significant vertebrate fossils is inconsistent with the 
foregoing, in that it deprives both the public and professionals of 
important specimens, which are part of our natural heritage.
                               appendix 2
Joint Position Statement by The Paleontological Society and The Society 
of Vertebrate Paleontology on Paleontological Resources on U.S. Public 
                                 Lands
    The Paleontological Society and The Society of Vertebrate 
Paleontology are committed to increasing scientific knowledge, 
educational benefits, and appreciation of the natural world based on 
fossils--for everyone--child or adult, the general public, or amateur 
or professional paleontologists. Fossils are an invaluable part of our 
scientific and natural heritage.They yield detailed information about 
the history of life and of our planet, and provide lessons for the 
modern world and our future.
    Many important fossil localities occur on U.S. public lands and 
belong to all people of the United States, including future 
generations. The Society of Vertebrate Paleontology and The 
Paleontological Society therefore support the development of policies 
and practices that can be used by different federal agencies to 
regulate the collection of fossils on U.S. public lands in an 
appropriate, clear, and consistent manner.
    Many fossils are common (for example, many non-vertebrate fossils) 
and should be allowed to be collected--in a responsible way--by any 
amateur or professional paleontologist, thus allowing them to 
experience and benefit from the excitement of discovery, recovery, 
identification and study.In particular, because of the benefits that 
derive from increased public appreciation of fossils, it is important 
that the participation of amateurs in paleontology is not discouraged 
by Federal policies and practices.
    Other fossils are rare (for example, many vertebrate fossils and 
some non-vertebrate fossils), and require special protection, 
especially from destruction by vandalism or commercial exploitation. In 
particular, because of the dangers of overexploitation and the 
potential loss of irreplaceable scientific information, commercial 
collecting of fossil vertebrates on public lands should be prohibited, 
as in current regulations and policies. The commercial collecting of 
other paleontological resources on U.S. public lands should be strictly 
regulated by permit through the appropriate land management agencies. 
Regulations and polices regarding the collection of paleontological 
resources from U.S. public lands should be strictly enforced.
    In this context, the Council of The Paleontological Society and the 
Executive Committee of the Society of Vertebrate Paleontology strongly 
support actions that:

  <bullet> protect fossils on public lands as finite natural resources;
  <bullet> encourage responsible stewardship of fossils for 
        educational, recreational, and scientific purposes;
  <bullet> promote legitimate access to, and responsible enjoyment of, 
        paleontological resources on public lands by the public and 
        amateur paleontologists for personal use, and by the 
        professional paleontological community, including professional 
        paleontologists from outside the U.S.; and
  <bullet> bring fossils from public lands into public institutions 
        where they are available for purposes of education and 
        scientific research.

    Senator Akaka. Thank you very much. We both have questions 
for you.
    In case I am wrong, Mr. Kearney, I do not believe you had 
any comments on S. 2727.
    Mr. Kearney. Yes, sir, I do. Inadvertently, I did not go on 
to that statement when I completed my first one. So I 
absolutely do, yes, sir. Thank you very much.
    Senator Akaka. Well, we look forward to having that one.
    Mr. Kearney. Thank you. And I do.
    Senator Akaka. Now my first question is for the two 
administration witnesses, and that concerns S. 2727. As your 
testimony notes, this bill incorporates the recommendations 
from the report both of your agencies submitted to Congress a 
few years ago. I want to make sure that I understand the 
administration's position on this bill.
    My understanding is that the administration supports the 
fundamental concept of the bill in establishing a comprehensive 
policy for protecting fossil resources on Federal lands. But 
you have a few technical concerns with some definitions in the 
bill. Is that correct, Mr. Kearney?
    Mr. Kearney. Well, yes, sir. As we said in our testimony, 
we generally support the purposes of the bill. We would like an 
opportunity to more fully review it and submit some of the 
specific suggested changes and improvements that we have 
regarding it and put those in writing, matters relating to the 
savings clause as it relates to mineral rights and grazing, for 
example, some of the definitions. Yes, sir, that is correct.
    Senator Akaka. Ms. Estill.
    Ms. Estill. That is correct. We have one sticking point 
that we would like to work through in writing that has to do 
with the amount of fines and the use of those funds once 
collected.
    Senator Akaka. I have a question for all of you. Under S. 
2727, there is broad authority for the casual collector to pick 
up invertebrate fossils. Is this exemption too broad so that it 
might encourage small scale or clandestine excavation? Do you 
have any suggestions to improve the wording of this exemption? 
For example, should the bill differentiate between surface and 
subsurface casual collecting?
    Mr. Kearney.
    Mr. Kearney. That is certainly something we would be happy 
to take a look at in preparation for the hearing. It was not a 
focus of our concern. However, there is one point I would take 
the opportunity to raise with respect to that provision. The 
Park Service does not currently allow for casual collection. 
Rather, all of their collection is by permit, and we would like 
to ensure in the clarification, as we work through the 
legislation, that that is continued and preserved with respect 
to their existing practice.
    Senator Akaka. Ms. Estill.
    Ms. Estill. The Forest Service currently does allow casual 
collecting by amateurs without permit, but there is not 
anything that really formally recognizes this activity. We see 
S. 2727 formally allowing it, and we see that as a good thing 
for the casual collector.
    In terms of how much is enough and how much is too much, I 
thought it was fairly clear that it did not allow ground 
disturbing activities. So it would have to be those that are 
lying on the surface, and you would not allow the digging out 
without permit. But we would be happy to work with you on that, 
too.
    Senator Akaka. Dr. Stucky.
    Dr. Stucky. I think as currently stated the bill is fairly 
comprehensive and direct. I do think that it recognizes on the 
part of land managers that some current practice in terms of 
restricting some excavation, major excavation, could occur.
    I also think that it is very important to emphasize, 
though, that in terms of the amateur collector, you know, 
invertebrate fossils are a major part of the hobby collecting 
and so on. So we would be very supportive of amateurs 
collecting invertebrate fossils.
    Senator Akaka. Let me ask: Senator Thomas, do you have any 
questions?
    Senator Thomas. Well, I do. Of course we now have a vote 
pending.
    But what you just said, Doctor, is what I think everybody 
is for, preserving these things and so on. But how do you 
define these things? I have a letter here from a group in 
Wyoming that protests the proposed legislation which would 
prohibit rock hounding on our public lands. Much of Wyoming was 
once an inland sea; much exposed geology there. All vertebrate 
fossils are not as rare as your legislation suggests.
    At any rate, she says, ``Do not take rock hounding away 
from us.''
    How are we going to define this? And how are you going to 
enforce it? I am all for it, but I am very skeptical of how you 
decide where you stop, where you begin. If it is just 
underground work, maybe so. If it is laying on the surface, who 
is going to say whether that is--how do you define these 
things?
    Dr. Stucky. First of all, I do not think the legislation 
changes any practice as it currently occurs on public lands 
today.
    Senator Thomas. But it does. There is none practically. How 
many prosecutions have you had?
    Dr. Stucky. I know from my standpoint, I have some idea 
about the----
    Senator Thomas. Tell me.
    Dr. Stucky. There have been perhaps a dozen prosecutions; 
you know, the number of places where there have been specimens 
taken from public lands, though, 731 cases on national park 
lands over 5 years.
    Senator Thomas. But you have--it has been against the law. 
I mean, you have been able to fine? How many times have they 
been fined? You have to be able to prove it and so on. And I 
just am not sure. This seems like it is awfully broad. And I am 
all for it, but how are you going to enforce it? I have already 
watched the Forest Service, for instance, try to enforce 
staying on the highway. You cannot do it. You do not have 
enough people.
    Dr. Stucky. You really can. I mean, the law essentially 
raises an ethical standard in terms of how we should protect 
our national heritage. I think that is a really important 
distinction.
    For one thing, there is the ability on the part of the land 
manager and most people, and certainly most hobbyists, to 
recognize the difference between a significant vertebrate 
fossil and invertebrate fossils and fossil plants. They occur 
in different kinds of rocks, for the most part. And they are 
fairly easy to recognize based upon commonly understood anatomy 
by the amateur collectors.
    Senator Thomas. And you do not think they understand it 
now?
    Dr. Stucky. Yes, I do think they do.
    Senator Thomas. Then what difference is this going to make?
    Dr. Stucky. Essentially for those who are taking those 
specimens from public lands that are, you know, worth a lot of 
money and essentially stealing them from the public lands; when 
you have specimens like the Allosaurus that is in my testimony 
that was taken, virtually taken, from public lands and worth 
millions of dollars and taken from our public treasury.
    Senator Thomas. If I were in that gang and I could get $7 
million for it, I would not worry about the $100,000 you are 
going to fine me.
    Dr. Stucky. For most people, it will represent an ethical 
standard.
    Senator Thomas. I understand. I just think it is so broad 
that it distresses me a little bit. I think there needs to be 
more definition of what it is you are preserving, where it is 
you are preserving it, and those kinds of things. And I think 
this lady has a point. I do not want to be afraid to go out and 
look for rocks somewhere on the BLM in Wyoming.
    Ms. Estill. The point is well taken. I think that what--in 
response to your question about how many have we prosecuted in 
the Forest Service on the National Grasslands, it is 6, which 
is not a whole lot.
    Senator Thomas. No, it is not.
    Ms. Estill. And part of the problem is that the laws that 
we currently operate under really are not very broad in the 
treatment of paleontological resources. We have the one that 
sort of protects archeological resources, if they are tied in 
with people, if they are tied in with archeological resources. 
So maybe a cave bear that is associated with people or with a 
cave, because the Cave Act also protects fossils that are 
associated with a cave.
    But those fossils of dinosaurs are not covered by either, 
unless the dinosaur happens to be living in a cave. So we have 
been--we have run into an issue of having difficulty in 
prosecuting cases, because there is this fuzzy space. And one 
of the things that we like about this bill is that it does help 
to clear up that fuzzy space.
    In terms of the average, you know, a person that likes to 
go out and collect fossils, we sort of feel like this 
strengthens their ability to do it on national forests and 
grasslands. Right now, it is kind of wishy-washy and very much 
sort of a line officer call. This actually puts into statute 
that it is permissible without permit for a recreational user 
to go out and collect invertebrates and plants.
    Senator Thomas. You are familiar with, I guess it is BLM 
land, but out around Kemmerer, Wyoming in the Fossil Buttes, 
they have been enforcing this for years, not only the Federal 
agencies, but also the local agencies.
    At any rate, well, I agree with you. I just think maybe we 
need to take a look at this and see if we cannot define things 
a little more clearly, so that people are comfortable with what 
they can do and what they cannot do and so on.
    Ms. Estill. Right.
    Senator Thomas. Thank you, Mr. Chairman. I am ready to go 
vote.
    Senator Akaka. Do you have any further questions?
    Senator Thomas. No, sir, I do not.
    Senator Akaka. As you can tell, we have a vote that is 
pending at the present time.
    Let me ask you another question, Mr. Kearney. In your 
testimony, you raise the general question about the forfeiture 
and criminal penalty provisions of S. 2727.
    Mr. Kearney. Yes, sir.
    Senator Akaka. Do any of you have any specific comments or 
suggestions about these provisions?
    Mr. Kearney. As we indicated in the testimony, we would 
like to make--we would like to work with the committee and 
submit to you in writing some additional suggestions or ways to 
make sure that it achieves its intended purpose.
    Senator Akaka. Yes. I understand that fossils collected 
currently under permit are considered government property and 
must be deposited into an approved repository. Could you 
explain the criteria or requirements for the becoming an 
approved repository?
    Mr. Kearney. I would be happy to provide that with you in 
writing for our purposes, Senator. I am not immediately 
familiar with what those criteria are.
    Senator Akaka. Do any of you have any other comments to 
make about any of the bills?
    Ms. Estill.
    Ms. Estill. No, sir.
    Senator Akaka. I have a few questions remaining. Understand 
also that we have two votes pending, which will take some time. 
So what I will do is, if we need to, submit the questions for 
you. But I want to thank you so much for coming to this 
hearing. Your responses have been helpful to us. And I want to 
thank you again for being here.
    With that, the hearing record will remain open for 2 weeks. 
If anyone wishes to submit additional comments or materials to 
be included in the record, you may do so during that time.
    Thank you again for being here.
    The hearing is adjourned.
    [Whereupon, at 3:05 p.m., the hearing was adjourned.]

                                    

      

</pre></body></html>
